$0-739

ORIGINAL
FILED
NOV 1 1 2020

3fn ®fje

Umpremr Court of tl)t ®nttrb H>t
ISAAC LEVIN,
Petitioner,
V.
KENNETH J. FRANK, BRIAN SEACHRIST, THE CITY OF
BINGHAMTON
■V

Respondents.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
PETITION FOR A WRIT OF CERTIORARI

Isaac Levin
Petitioner, Pro se
960 Cliffside Avenue
N. Woodmere NY 11581
516-374-0188
Isaaclevin2010@gmail.com

O’

V/

QUESTION(S)/ ISSUE(S) PRESENTED
This Court should grant certiorari to resolve the existing conflict of law which
exists as to the application of abandonment to a property which was
grandfathered and whether applicable municipal zoning ordinances are
applicable.

LIST OF PARTIES
Petitioner — Isaac Levin
Respondent - Kenneth J. Frank, individually and as Corporation Counsel for The
City of Binghamton
Respondent - Brian Seachrist, individually and as first Corporation Counsel
Respondent - The City of Binghamton, a governmental entity

STATEMENT OF RELATED CASES
33 Seminary LLC, 26 Seminary Avenue Project LLC, and Isaac Levin vs. City of
Binghamton, et al., Index No. 10-134, State of New York Courtland County Supreme
Court. Case currently under appeal to the New York State Appellate Division 3rd
Department.

i

?
V

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

1

STATEMENT OF RELATED CASES

x

TABLE OF CONTENTS

11

INDEX TO APPENDICES

li

TABLE OF AUTHORITIES CITED

in

OTHER AUTHORITIES

IV

OPINIONS BELOW

1

JURISDICTION

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

16

INDEX TO APPENDICES
APPENDIX “A” - Order of the United States Court of
Appeals for the Second Circuit denying panel rehearing and
rehearing en banc. Dated July 1, 2020...................................

la

APPENDIX “B” - Summary Order of the United States
Court of Appeals for the Second Circuit affirming the
judgment of the district court. Dated May 11, 2020......

2a

APPENDIX “C” - Order of the United States District Court
for the Northern District of New York dismissing the action.
Dated April 19, 2019............................................ .....................

5a

ii

V

TABLE OF AUTHORITIES CITED
Cases

Page

33 Seminary LLC v. City ofBinghamton, 120 F. Supp. 3d 223.
Beszedes v. Board of Comm'r, 116 Colo. 123, 178 P. 2d 950

4
„

10,11,13

C. F. Lytle Co. v. Clark, 491 F.2d 834, 837

10

City ofBinghamton v. Gartell, 275A.D. 457, 90 N.Y.S.2d 556

12

City ofLos Angeles v. Gage, 127 Cal.App.2d 442, 459, 274 P.2d 34

10

Darcy v. Zoning Board ofAppeals of the City ofRochester,
185 A.D.2d 624, 586 N. Y.S.2d 44 (4th Dep't 1992).

15

Ellentuck v. Klein, 570 F. 2d 414, 418.

9

Kelly Supply Co. v. Anchorage, 516 P.2d 1206

10

Matter ofPrudco Realty Corp. v Palermo, 60 N.Y.2d 656, 657-658

12

Putnam Armonk, Inc. v. Town ofSoutheast, 52 A.D. 2d 10, 15,
382 N. Y.S.2d 538, 542

12

Ringtown Enterprises, Inc. v. Borough ofRingtown, 34Pa.Cmwlth.349..

10

Service Oil Co. v. Rhodus, 500 P.2d 807

10,11

Town Bd. of Town ofSouthampton v. Credidio, 21 A.D. 3d 547

16

Toys R Us v. Silva, 89 N. Y.2d 411, 421, 654 NYS2d 100, 105.

12

Village of Waterford v. Amna Enterprises, Inc., 27A.D.3d 1044,
1045-1046, 812 N.Y.S.2d 169 (N. Y.A.D. 3 Dept. 2006)

iii

15

?

n.

Other A uthoritv
1 Anderson's American Law ofZoning § 6.65, at 678

12

6 Powell on Real Property f 87l[3][f][i]

13

6 Powell on Real Property f 87l[l][a]

9

Binghamton Zoning Code §410-78

,

The Law ofMunicipal Corporations § 25.193, at 70 n. 8

13
11

4 A. Ra thkopf & D. Ra thkopf, The La w ofZoning and Planning § 51.08[2] 11
4A N. Williams & J. Taylor, American Land Planning Law § 115.14

11

4 E. Yokley, Zoning Law and Practice § 22-13, at 94

11

82 Am. Jur.2d Zoning and Planning § 220, at 742 n. 10(1976)

11

1 R. Anderson, American Law ofZoning § 6.68, at 650 n. 3

11

101A C.J.S. Zoning and Land Planning § 174, at 532 n. 84 (1979)

11

Zoning: Right to Resume Nonconforming Use ofPremises After
Voluntary or Unexplained Break in the Continuity ofNonconforming
Use, 57A.L.R.3d279, 323-24(1974)

11

iv

7

Zoning- Right to Resume Nonconforming Use ofPremises After
fnvoluntary Break in the Continuity ofNonconforming Use
Caused by Difficulties Unrelated to Governmental Activity,
56A.L.R.3d 14, 43(1974)

11

V

•V

1

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the order
below.
OPINIONS BELOW
The opinion of the highest court to review the merits appears at Appendix “B”
to the petition and is found at Levin v. Kenneth J. Frank, et. al., No. 19-1102 (2nd Ct.,
2020).
JURISDICTION
The date on which the highest court reviewed the merits of the case was May
11, 2020. A copy of that decision appears at Appendix “B.” Petitioner moved for
rehearing and/or rehearing en banc, which the United States Court of Appeals for the
Second Circuit denied on July 1, 2020. See Appendix “A.”
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(l).

•X

<•

2

STATEMENT OF THE CASE
On April 19, 2019, the Honorable Mae A. DAgostino of the United States
District Court for the Northern District of New York dismissed with prejudice
Petitioner’s Section 1983 claims contained in the Amended Complaint and denied
reconsideration of Petitioner’s request for emergency injunctive relief as moot. This
is a civil action brought by a non-offending injured party who thereafter inexplicably
found himself in a legal battle for over 11 years trying to protect the property he
purchased and the money he invested. This is a civil action brought forth to redress
violations of Petitioner’s rights guaranteed under the United States Constitution.
Petitioner sought compensatory damages, punitive damages, and a declaratory
judgment as a result of Respondents’ wrongful and illegal conduct.

Following

extensive discovery and adequate proffering of sufficiently admissible evidence, the
District Court erred by: (l) blatantly ignoring Petitioner’s exhibits! (2) refusing to
consider the correct applicability of certain portions of the Zoning Code of the City of
Binghamton, which was annexed to the complaint and provided undisputed evidence
that the 26 Seminary property (the “subject property”) was grandfathered; (3)
adjudicating the claims as dismissed based on an erroneous theory of res judicata!
and, perhaps most importantly, (4) erroneously finding that Petitioner was
“converting” the property from one zoning classification to another.

The Second

Circuit Court of Appeals blindly affirmed the District Court’s erroneous decision.
It was undisputed that at the time the advisory letter Petitioner received from
Respondents, specifically Mr. Chadwick, the Head of the Building Department for the

7
<

■

3

City of Binghamton (the “advisory letter”)'at the time that the subject property was
purchased—that the subject property contained a vacant, abandoned and empty
space on the first floor, two residential units on the second floor, and one residential
unit on the third floor. The lower tribunals erroneously concluded that 26 Seminary
was required to obtain Series A Site Plan approval for the property when the advisory
letter from and the permits granted were based on a typical floor plan. Respondents
contended that the issue was the specific use of the ground floor, which Petitioner
sought to change from commercial to residential, thereby triggering the need for site
plan review and an attendant zoning variance for parking. However, the parties did
not dispute that the first floor—at the time of purchase-contained what was zoned as
a commercial first floor—was in fact vacant and abandoned for more than 12 years.
Mr. Chadwick explained that the advisory letter was a zoning compliance letter
which indicated that the use of the subject property on the date of the letter was
legally approved as a nonconforming use.

In fact, Mr. Chadwick’s deposition

testimony (admitted into evidence to the District Court and made part of the record
herein) explicitly stated that his determination was that the property in question
“was being used as a three family legally nonconforming use.” Mr. Chadwick agreed
that this was based on the fact that this use “predated whatever ordinance which
would otherwise make it illegal [.]” He went on to explain that “whatever zoning
restrictions for a nonconforming use...continue...with the nonconforming use.”

■?

4

The 2011 Prior Action v. The 2018 Current Action.
On November 2, 2011, Petitioner's companies brought a lawsuit alleging that
Ordinance 009-009 was unconstitutionally vague and arguing that the denial of
certain building permits and variances violated the companies' rights under the Due
Process and Equal Protection Clauses. See 120 F. Supp. 3d at 231. On July 28, 2015
the District Court granted summary judgment against the plaintiffs, which the
Second Circuit affirmed on November 23, 2016. See 670 Fed. Appx. at 730-31; see
also 33 Seminary LLC v. City of Binghamton N.Y., 138 S. Ct. 222 (2017) (denying
certiorari).
On November 11, 2018, Petitioner commenced this action pursuant to 42
U.S.C. §1983 in the Northern District of New York. On December 12, 2018 Petitioner
filed the amended complaint.

Petitioner alleged that Respondents violated

Petitioner’s rights under the Due Process and Equal Protection Clauses by denying
certain building permits and variances.

Petitioner discovered new ‘DNA,’ not

available before to Petitioner that clearly demonstrated that the subject property, 26
Seminary Avenue, was grandfathered to a 1983 City Ordinance.
In the prior action, 33 Seminary 1 (the “prior action”), the issue was the status
of the first floor which 30 years earlier, was perhaps a grocery store type
establishment. Since then, it was abandoned.
On April 19, 2019, the District Court issued its Decision and Order that
dismissed Petitioner’s substantive and procedural due process claims with prejudice
related to the property as collaterally estopped by a July 28, 2015 Decision, Order

5

and Judgment a decision by the United States District Court for the Northern District
of New York granting summary judgment under Fed. R. Civ. P. 56(a) against
Plaintiffs claims brought pursuant to 42 U.S.C. § 1983 for Defendants’ violations of
Plaintiffs’ rights under the Equal Protection and Due Process Clauses to the U.S.
Constitution based upon a selective enforcement theory. See 33 Seminary LLC v.
City ofBinghamton, 120 F. Supp. 3d 223 - Dist. Court, ND New York 2015.
Had the District Court or United States Court of Appeals for the Second Circuit
considered the above, and given it minimal weight, the prior decision in 33 Seminar
1 and the current action would undoubtedly have been rendered in Petitioner’s favor
and discontinued within a short time. Simply stated, the District Court and the
United States Court of Appeals for the Second Circuit elected to overlook the fact that
26 Seminary was grandfathered.
In this action, the District Court and the United States Court of Appeals for
the Second Circuit elected to overlook the newly discovered ‘DNA’ demonstrating that
26 Seminary was grandfathered for all “subsequent amendments thereof.” While
Petitioner was excited with the new ‘DNA,’ the lower courts elected to call it an old
zoning code. Grandfathering laws are old. The grandfathering clause was established
in the late 1800s.

In August 2018, Petitioner discovered the grandfathering

ordinance, the 1983 “Appendix A” zoning code. The current action followed this
crucial discovery.
Petitioner demonstrated that Respondents worked in concert to commit a hate
crime against him, using an ordinance as the weapon, resulting in substantial

3
6

financial and emotional damages, which have thus far been unrecognized.

The

District Court and the United States Court of Appeals for the Second Circuit
committed reversible errors in dismissing Petitioner’s claims against Respondents
and further denying injunctive relief as ‘moot.’
A 2-Stage Unconstitutional Taking.
As

the

record

demonstrates,

Respondents

unconstitutional taking of the subject property.

engaged

in

a

2-stage

The first stage involved the

revocation of the necessary permits and the second stage was when Respondents took
actual possession of and subsequently demolished the subject property.
Petitioner is the controlling member in 26 Seminary LLC, a limited liability
company that he created to purchase the subject property in a multifamily residential
zoning district.

When the LLC purchased the Property in 2007, it contained a

building with empty commercial space on the ground floor, two apartments on the
second floor, and one apartment on the third floor. Additionally, the subject property
did not have any off-street parking. Petitioner applied and obtained various permits
for a three-family house. Each floor was typical, meaning residential three-bedroom
house. Days prior to the adoption of the new zoning law, the building permits were
cancelled or revoked. In March of 2009, the City of Binghamton adopted Ordinance
009-009, which increased the amount of off- street parking that certain residential
buildings are required to have. The new parking requirements are triggered "when a
building owner sought to modify the use of an existing structure on the property."
(emphasis added). The LLC applied for a variance from Ordinance 009-009's parking

1

requirements, which the town arbitrarily and unlawfully denied.

On August 25,

2018, Respondents demolished the building on the subject property after it partially
collapsed. Respondents intentionally demolished the building on the Sabbath, so that
Petitioner would not discover that the building had been demolished until 9;50 p.m.
It has been a practice of the anti-Semites to hurt the Jewish population on Saturday
knowing that they could not be found or could only be found for various degrees of
abuse.
Petitioner was targeted by employees of Respondents with an ordinance
because he was recognized as Jewish by, among other things, his clothing, his slight
accent, and his name. Petitioner has been circling around the courts for 11 years,
unable to find equitable justice.
Petitioner timely appealed the order of dismissal to the United States Court of
Appeals for the Second Circuit.

On May 11, 2020, the Second Circuit issued its

Summary Order of Affirmance.

Petitioner sought rehearing and/or rehearing en

banc, which was denied on July 1, 2020.
This petition follows.

y

8

REASONS FOR GRANTING THE PETITION
The District Court and the United States Court of Appeals for the Second
Circuit have misconstrued the issues of abandonment in the State of New York and
grandfathering, which is defined as the “continuation of land uses that are made
nonconforming by a change in zoning.” Certiorari should be granted to once and for
all settle the conflicts which exist as to the definition and application of abandonment
to municipality Zoning Codes.
This case presents a unique opportunity for this Court to resolve the existing
conflicts and barriers for those in the public domain who choose to rehabilitate and
attempt to revitalize neighborhoods around the Country through the purchase of
properties in these neighborhoods. Real estate purchases can assist in increasing
property values and brining life back to these neighborhoods. Much like Petitioner's
experience herein, the arbitrary and capricious application of certain Zoning Codes
can disturb and frustrate these purchases. This case does not simply present an
individual grievance of errors. This case likely affects the real estate industry as a
whole, affecting people nationwide.

This Case Presents an Opportunity for the Court to Clarify Conflicting Laws
re^ Abandonment as applied to municipal Zoning Codes.
At the heart of the underlying case is the issue of whether Petitioner intended
a ‘conversion’ of the first floor of the subject property. The District Court erroneously
found, and the Second Circuit affirmed, the erroneous finding that there was an
intent to convert and thus the newly enacted 2009 zoning ordinance applied as stated

■J

9

by Respondents throughout the course of litigation.

Petitioner sufficiently

demonstrated that the subject property was grandfathered (pursuant to the 1983
Appendix A), and thus the parking requirements were not applicable to the project.
In contrast to the finding in Ellentuck v. Klein, 570 F.2d 414, 418, the Second Circuit
determined that the proffered facts showing that there was an abandonment of the
first-floor commercial space were ‘meritless.3 The Ellentuck Court found that “under
New York law, abandonment of a nonconforming use may be found if there was a
manifestation of intent to discontinue the prior nonconforming use, coupled with an
actual discontinuance.”
A nonconforming use is a lawful use in existence on the effective date of the
zoning restriction and continuing thereafter in nonconformance to the ordinance. 6
Powell on Real Property ]j 871 [l] [a] (1981). A provision permitting continuance of a
nonconforming use is ordinarily included in zoning ordinances because of the
hardship and doubtful constitutionality of compelling the immediate discontinuance
of nonconforming uses. However, the general purpose of zoning ordinances is to
achieve conformity, eventually terminating all nonconforming uses. Zoning
ordinances ordinarily establish separate areas, locating in each the appropriate uses,
and forbidding other uses that will tend to impair the development and stability of
the area for appropriate uses. The public welfare is considered in the context of the
objectives of the zoning and the effect of the zoning on all of the property within any
particular district. It is not contemplated that pre-existing nonconforming uses are
to be perpetual. "The presence of any nonconforming use endangers the benefits to be

)
10

derived from a comprehensive zoning plan." City of Los Angeles v. Gage, 127
Cal.App.2d 442, 459, 274 P.2d 34, 43 (1954).
Every zoning ordinance involves some impairment of vested rights either by
restricting prospective uses or by prohibiting the continuation of existing uses,
because it affects property already owned by individuals at the time of its enactment.
The distinction between an ordinance restricting future uses and one requiring the
termination of present uses is merely one of degree. The general policy of the courts
is to permit municipalities to impose various restrictions and limitations on
nonconforming uses. See, e.g., Ringtown Enterprises, Inc. v. Borough of Ringtown,
34 Pa.Cmwlth. 349, 383 A.2d 1292 (1978); Kelly Supply Co. v. Anchorage, 516 P.2d
1206. Nonconforming uses represent conditions which should be reduced to
conformity as quickly as is compatible with justice. Id.
The issue of abandonment is one crucial for the Supreme Court’s review as it
is apparent that a split exists in existing state and federal law which requires
clarification from the highest Court.

In fact, Federal courts have struggled in

deciphering the reasoning of the cases on this issue. In C.F. Lytle Co. v. Clark, 491
F.2d 834 (10th Cir.1974), the Tenth Circuit Court of Appeals construed these types
of cases to mean that intent to abandon need not be shown when the zoning ordinance
specifies a time period for terminating the nonconforming use. Id. at 837 & n. 1
(relying on Beszedes v. Board of Comm'r, 116 Colo. 123, 178 P.2d 950 (Colo.1947) and
finding Service Oil Co. v. Rhodus, 500 P.2d 807 (1972) inapplicable).

A*

11

Adding to the necessity for this Court’s review is the fact that commentators
similarly have been unable to discern whether the law requires proof of intent to
abandon a nonconforming use when a zoning ordinance specifies a time for
discontinuance. Compare 8A E. McQuillan, The Law of Municipal Corporations §
25.193, at 70 n. 8 (3d ed. 1986) (intent to abandon is irrelevant (citing Service ChYand
Beszedesj) and 4 A. Rathkopf & D. Rathkopf, The Law of Zoning and Planning §
51.08[2], at 51-137 n. 17 (4th ed. 1988) (intent to abandon is irrelevant (citing
Beszedesj) and 4A N. Williams & J. Taylor, American Land Planning Law § 115.14,
at 216-17 (rev. ed. 1986) (intent to abandon is irrelevant (citing Beszedesj) and 4 E.
Yokley, Zoning Law and Practice § 22-13, at 94 (4th ed. 1979) (ordinance that fails to
require proof of intent to abandon is not unreasonable so long as it specifies time for
discontinuance (citing Service Oil)) and 82 Am.Jur.2d Zoning and Planning § 220, at
742 n. 10 (1976) (intent to abandon is irrelevant (citing Perlmutterj) with 1 R.
Anderson, American Law of Zoning § 6.68, at 650 n. 3 (3d ed. 1986) (intent to abandon
is required (citing Beszedesj) and 101A C.J.S. Zoning and Land Planning % 174, at
532 n. 84 (1979) (intent to abandon is required (citing Service Oilj) and Annotation,
Zoning!- Right to Resume Nonconforming Use of Premises After Voluntary or
Unexplained Break in the Continuity of Nonconforming Use, 57 A.L.R.3d 279, 32324 (1974) (intent to abandon is required but may be inferred from destruction of
nonconforming building coupled with failure to take reasonably prompt action to
rebuild (citing Service Oil)) and Annotation, Zoning:Right to Resume Nonconforming
Use of Premises After fnvoluntary Break in the Continuity of Nonconforming Use

12

Caused by Difficulties Unrelated to Governmental Activity, 56 A.L.R.3d 14, 43 (1974)
(intent to abandon is required (citing Service Oil)).
Generally, abandonment of a nonconforming use requires both an intent to
relinquish and some overt act or failure to act, indicating that the owner neither
claims nor retains any interest in the subject matter of the abandonment (see, 1
Anderson's American Law of Zoning § 6.65, at 678 [Young 4th ed]). In New York
however, the inclusion of a lapse period in the zoning provision removes the
requirement of intent to abandon — discontinuance of nonconforming activity for the
specified.period constitutes an abandonment regardless of intent.

See Matter of

Prudco Realty Corp. v Palermo, 60 N.Y.2d 656, 657-658. Abandonment, or intention
to abandon, cannot be presumed but must be based on an affirmative action of the
one who is abandoning. City ofBinghamton v. Gartell, 275 A.D. 457, 90 N.Y.S.2d 556
(3d Dept. 1949). "Generally, abandonment of a nonconforming use requires both an
intent to relinquish and some overt act or failure to act, indicating that the owner
neither claims nor retains any interest in the subject matter of the abandonment."
Toys R Us v. Silva, 89 N.Y.2d 411, 421, 654 NYS2d 100, 105 (1996). Abandonment
"depends upon the concurrence of two factors, namely an intention to abandon and
some overt act, or some failure to act, carrying the implication that the owner neither
claims nor retains any interest in the subject matter of the abandonment." Putnam
Armonk, Inc. v. Town ofSoutheast, 52 A.D.2d 10, 15, 382 N.Y.S.2d 538, 542 (2d Dept
1976).

. i>

13

The Tenth Circuit has established that under some provisions, however, non­
use for a stated period of time is conclusively deemed to be an abandonment of the
non-conforming use. See 101 C.J.S. Zoning § 199 (1958), citing Beszedes v. Board of
Comm'r, 116 Colo. 123, 178 P.2d 950 (Colo.1947). In Beszedes, the provision, in
pertinent part, provided that "if such non-conforming use is discontinued for a period
of one year . . . any further use of said premises shall be in conformity with the
provisions of this resolution." Id.
Generally, the right to a nonconforming use exists only so long as the use
continues to exist. A nonconforming use may terminate in one of several ways. These
include amortization, abandonment, nonuse, or discontinuance for a prescribed
period, and voluntary or involuntary destruction. 6 Powell on Real Property If
871 [3] [£] [i]. Some zoning ordinances provide that if a nonconforming use is
"discontinued" for a designated period of time it may not be resumed. The apparent
objective of a provision using the term "discontinued" or "ceased" is to avoid the
problem of having to prove intent to abandon a nonconforming use. See, e.g., C. F.
Lytle Co. v. Clark, 491 F.2d 834, 837 (10th Cir.1974). The City of Binghamton Zoning
Code from 2006 through 2018, including the newly enacted 2009 Zoning Code, states
that:
§410-78 Cessation of use of nonconforming building, structure, or land.
A. If any nonconforming use of a building, structure, or land ceases, for any
reason, for a period of 12 consecutive months, such nonconforming use shall
not thereafter be established. Any further use of such building, structure or

14

land shall be in-conformity with the standard specified by this chapter for the
district in which such building, structure or land is located.
The language in the Code is unambiguous and could not be disputed that there
was no commercial space at any given time. If the first floor were in-conformity with
the district, all residential, how could the District Court or Second Circuit find a
conversion? Clearly, there was no commercial space and no change of use.
Respondents have argued that they did not agree to the ‘conversion’ of the first
floor from commercial to residential despite the fact that the permits issued were for
a three-family house, each floor typical to each other. If that is true, then their
contention runs contrary to the fact that the parties agreed that the building was
grandfathered as nonconforming. In fact, the commercial first floor was abandoned
and no longer in existence,' in light of this fact, there was no reason for Petitioner to
seek any change from one nonconforming use to another. Notwithstanding this fact,
even if it was in existence, Permit 8A issued to Petitioner, via the LLC, removed such
a requirement.
Even if there was a conversion, which there was not, but if there was, the
conversion was not from one type of nonconforming use to another type of
nonconforming use. The commercial space restored itself to residential ‘as of right’
some thirty years earlier, and the subject property remained nonconforming to
everything else such as parking, setback, height, yard etc. The record reflects that
the lower courts realized that the abandoned space restored itself to be in conformity
with the district (residential) some thirty years earlier, but still believed that

\

15

Petitioner made a modification from commercial to residential and had to comply
with the newly enacted zoning code. It is well established that the primary purpose
of grandfathering laws is to protect properties from newly enacted ordinances that
they cannot comply with. Due to the length of time of abandonment of the subject
property, Respondents could not reestablish the property’s non-conforming use as to
the first floor being commercial. The evidence clearly showed that the 1st floor
commercial non-conforming use was discontinued. As a result, Respondents could not
require the reviews and procedures against the clear stipulations of the ordinance.
In the instant case, the first “commercial” floor in question had been
abandoned for more than 12 years. Under New York law, abandonment of a
nonconforming use may be found if there was “manifestation of intent to discontinue
the prior nonconforming use, coupled with an actual discontinuance.” Ellentuck, 570
F.2d 414, 418 fn8 (C.A.N.Y. 1978). Likewise in this lawsuit, Petitioner, through its
applications and other correspondence with the Planning Commission and Building
Department prior to purchase, expressed his intent to use the property in question in
a manner other than how it was originally classified 12 years earlier, as evident by
the permits granted and the typical floor plan.
The Appellate Division, Fourth Department, has held that a nonconforming
use was abandoned when it was clear that there was discontinuance for at least 20
months, much more than the 12-month period specified in the ordinance. Darcy v.
Zoning Board ofAppeals of the City of Rochester, 185 A.D.2d 624, 586 N.Y.S.2d 44
(4th Dep't 1992). See also Village of Waterford v. Amna Enterprises, Inc., 27 A.D.3d

16

1044, 1045-1046, 812 N.Y.S.2d 169 (N.Y.A.D. 3 Dept. 2006); Town Bd. of Town of
Southampton v. Credidio, 21 A.D.3d 547, 548, 800 N.Y.S.2d 732 (2005).

The

Appellate Division, Fourth Department, has similarly held that a set period of time
of abandonment for a property’s nonconforming use results in the zoning designation
being discontinued. Laughlin, at 622. In that decision, the court stated that the town
zoning code's provision that a nonconforming use is abandoned if “any part or portion”
of that use is discontinued for an 18-month period did not require complete cessation
of activity to sustain an abandonment. Id.

By comparison, a 12-year period of

complete abandonment [and perhaps 40 years according to the neighbors] can only
be viewed as a clear and unmistakable cessation of the prior non-conforming
commercial use. Such is the case with the subject property in question in this appeab
the first commercial floor has been abandoned for more than 12 years, [according to
the Respondents], Petitioner did his due diligence, made inquiries, and investigated
with Respondents’ Planning Commission and Building Department prior to and
subsequent to purchase, distinctly and conspicuously showing his manifest intent to
use the property in a manner other than its original classification.

CONCLUSION
For the reasons herein, the petition for writ of certiorari should be granted.

Dated: November 17, 2020.

V

17

Respectfully submitted,

IsSam ievin
Pro Se Petitioner
960 Cliffside Avenue
N. Woodmere, NY 11581
Isaaclevin2010@gmail.com
1.516.374.0188

